         DEPARTMENT OF
               HEALTH
            AND HUMAN
              SERVICES



                     Fiscal Year

                     2009

Office of Inspector General


        Justification of Estimates
  for Appropriations Committees
The FY 2009 Congressional Justification is one of several documents that fulfill the Department
of Health and Human Services’ (HHS’) performance planning and reporting requirements. HHS
achieves full compliance with the Government Performance and Results Act of 1993 and Office
of Management and Budget Circulars A-11 and A-136 through HHS agencies’ FY 2009
Congressional Justifications and Online Performance Appendices, the Agency Financial Report
and the HHS Performance Highlights. These documents can be found at
http://www.hhs.gov/budget/docbudget.htm and http://www.hhs.gov/afr/.

The Performance Highlights briefly summarizes key past and planned performance and
financial information. The Agency Financial Report provides fiscal and high-level performance
results. The FY 2009 Department’s Congressional Justifications fully integrate HHS’ FY 2007
Annual Performance Report and FY 2009 Annual Performance Plan into its various volumes.
The Congressional Justifications are supplemented by the Online Performance Appendices.
Where the Justifications focus on key performance measures and summarize program results,
the Appendices provide performance information that is more detailed for all HHS measures.

The Office of Inspector General Congressional Justification and Online Performance Appendix
are located on the OIG web site at http://www.oig.hhs.gov/publications.
                      Message from the Inspector General

I am pleased to present the Office of Inspector General (OIG) fiscal year (FY) 2009 Justification
of Estimates for Appropriations Committees. This budget request continues support for the
President’s and Secretary’s priority initiatives, reflects the goals and objectives in the
Department’s FY 2007-2012 Strategic Plan, and includes the FY 2008 Annual Performance
Plan and FY 2007 Annual Performance Report as required by the Government Performance
and Results Act of 1993.

OIG is a results-driven organization and program performance has been reported, as required
by the Inspector General Act of 1978, to Congress on a semiannual basis since the OIG’s
inception as the first statutorily mandated Inspector General in the Federal government. OIG’s
role is to protect HHS beneficiary well being and program integrity by detecting and preventing
fraud, waste, and abuse. OIG’s diligent oversight and enforcement presence helps ensure that
monies appropriated to HHS are expended as intended and in ways that account for threats of
fraud, waste, and abuse and promote economy, efficiency, and effectiveness.

The broad applicability of OIG’s oversight role across HHS programs makes the adoption of
similarly broad performance measures possible. OIG’s performance reporting throughout this
Budget Justification is therefore focused on the following measures:

   •   expected recoveries from audit disallowances and investigations,
   •   return on investment based on expected recoveries, and
   •   accepted quality and management improvement recommendations.

Given the increasing risks posed to the Department’s more than $650 billion in annual
expenditures, I am confident that a strong and capable OIG such as ours will continue to be an
important and meaningful investment for taxpayers. OIG is committed to continuing
collaboration with Congress, the Department, and our Federal, State, and local partners to
safeguard and improve HHS programs.




                                                    Daniel R. Levinson
                                                    Inspector General
                                      OFFICE OF INSPECTOR GENERAL
                                FY 2009 PERFORMANCE BUDGET SUBMISSION

Table of Contents                                                                                                                    Page

ORGANIZATION CHART

EXECUTIVE SUMMARY
Introduction and Mission ........................................................................................................... 1
FY 2009 Budget Overview ........................................................................................................ 2
All Purpose Table...................................................................................................................... 2

BUDGET EXHIBITS
Appropriations Language.......................................................................................................... 3
Amounts Available for Obligations ............................................................................................ 4
Summary of Changes ............................................................................................................... 5
Budget Authority by Activity ...................................................................................................... 6
Authorizing Legislation.............................................................................................................. 7
Appropriations History Table..................................................................................................... 8

NARRATIVE BY ACTIVITY
Header Information ................................................................................................................... 10
Program Description and Accomplishments ............................................................................. 10
Funding History......................................................................................................................... 16
Budget Request ........................................................................................................................ 16
Outputs and Outcomes Tables ................................................................................................. 17

SUPPLEMENATARY TABLES
Budget Authority by Object ....................................................................................................... 19
Salaries and Expenses ............................................................................................................. 20
Detail of Full-Time Equivalent Employment (FTE) .................................................................... 21
Detail of Positions ..................................................................................................................... 22

SPECIAL REQUIREMENTS
Financial Management Systems
  UFMS Operations and Maintenance (O&M) ......................................................................... 23
  HHS Consolidated Acquisitions System ............................................................................... 23
Enterprise Information Technology Fund.................................................................................. 24
Health Care Fraud and Abuse Control Program....................................................................... 27
                                              Department of Health and Human Services
                                                     Office of Inspector General
                                                        Organizational Chart


                                                                    Inspector General
                                                                 Daniel R. Levinson



                                                                Principal Deputy Inspector
                                                                          General
                                                                  Larry J. Goldberg


Deputy Inspector General        Deputy Inspector General        Deputy Inspector General for       Chief Counsel to the           Deputy Inspector General
   for Audit Services              for Investigations           Evaluations and Inspections         Inspector General            for Management and Policy
  Joseph Vengrin                  Timothy Menke                      Stuart Wright                  Lewis Morris                  Sam Shellenberger


  Assistant Inspector General     Assistant Inspector General       Assistant Inspector General    Assistant Inspector General      Assistant Inspector General
   for Centers for Medicare       for Investigations – Div. 1     for Evaluation and Inspections        for Legal Affairs           for Management and Policy
     and Medicaid Audits                 Gerry Roy                       Brian Ritchie                  Greg Demske                     Chris Ballister
       George Reeb


  Assistant Inspector General     Assistant Inspector General
    for Grants and Internal       for Investigations – Div. 2
       Activities Audits                  (vacant)
        Lori Pilcher


  Assistant Inspector General
  for Financial Management
   and Regional Operations
       Joseph Green


  Assistant Inspector General
       for General Audit
   Management and Policy
       John Hapchuk
Executive Summary                                                       Department of Health and Human Services
                                                                                      Office of Inspector General


   Executive Summary

   The mission of the Office of Inspector General (OIG), as mandated by the Inspector General Act
   of 1978 (Public Law 95-452, as amended), is “(1) to conduct and supervise audits and
   investigations relating to the programs and operations of [the Department of Health and Human
   Services (HHS)]; (2) to provide leadership and coordination and recommend policies for
   activities designed (A) to promote economy, efficiency, and effectiveness in the administration
   of, and (B) to prevent and detect fraud and abuse in, such programs and operations; and (3) to
   provide a means for keeping the [the Secretary] and the Congress fully and currently informed
   about problems and deficiencies relating to the administration of such programs and operations
   and the necessity for and progress of corrective action.” 1

   The operational mission statement adopted by OIG and used for organizational purposes such
   as strategic planning is “to protect HHS program integrity and beneficiary well-being by
   detecting and preventing waste, fraud and abuse; (2) identifying to Congress, the Department
   and the public opportunities to improve program economy, efficiency and effectiveness; and
   (3) holding accountable those who violate program requirements.”

   Funding to enable OIG’s oversight and integrity mission is supported by multiple mechanisms,
   including discretionary and mandatory (e.g., statutorily required) budget authorities. OIG’s
   discretionary budget authority provides funding to conduct oversight of HHS’ more than 300
   programs and operations at the Administration for Children and Families (ACF), Agency for
   Health Care Research and Quality (AHRQ), Agency for Toxic Substances and Disease Registry
   (ATSDR), Administration on Aging (AoA), Centers for Disease Control and Prevention (CDC),
   Food and Drug Administration (FDA), Health Resources and Services Administration (HRSA),
   Indian Health Service (IHS), National Institutes of Health (NIH), Substance Abuse and Mental
   Health Services Administration (SAMHSA), and the Office of the Secretary, which includes staff
   divisions dedicated to departmental management an coordination through such offices as the
   Assistant Secretary for Preparedness and Response (ASPR), and the Office of the National
   Coordinator (ONC) for Health Information Technology. Together, the programs and operations
   at these agencies had combined annual outlays in FY 2007 of approximately $112 billion. 2
   OIG’s discretionary budget request, which provides funding for oversight of these agencies and
   offices, for FY 2009 is $46,058,000.

   OIG’s mandatory budget authorities are devoted to oversight and integrity work related to
   specific programs. In FY 2008 OIG’s two mandatory authorities are targeted for oversight and
   compliance work related to the Medicare and Medicaid programs and operations. The specific
   authorities are provided through (1) the Health Care Fraud and Abuse Control (HCFAC)
   Program created by the Health Insurance Portability and Accountability Act (HIPAA) of 1996,
   and (2) the Medicaid Integrity Program created by the Deficit Reduction Act of 2005. Combined,
   OIG’s mandatory resources have accounted for approximately 80 percent of the office’s total
   budget authority for each of the last 10 years. 3 In FY 2008 OIG’s mandatory resources account
   for approximately $200 million and will be used to conduct oversight over the more than $560
   billion in annual Medicare and Medicaid outlays. OIG’s FY 2009 budget request includes
   $209,648,000 in mandatory funding.
   1
          Inspector General Act of 1978 (Public Law 95-452, as amended)
   2
          Budget of the United States Government, Fiscal Year 2007 Historical Tables
   3
          See the Funding History table beginning on page 8 for more information


                                                                                                   Page 1
Executive Summary                                                      Department of Health and Human Services
                                                                                     Office of Inspector General


   FY 2009 Budget Overview

   The FY 2009 President’s Budget request for OIG is $46,058,000, an increase of $2,827,000
   above the FY 2008 enacted amount. This budget request will enable OIG to maintain the
   FY 2008 President’s Budget authorized level of 260 full time equivalent (FTE) staff, and includes
   funding to support the President’s Management Agenda e-Gov initiatives, the Departmental
   enterprise information technology initiatives identified through the HHS strategic planning
   process, and OIG’s contribution to the HHS FY 2007 to FY 2012 Strategic Plan, which
   articulates the Secretary’s commitment to “provide ongoing oversight, evaluation, and analysis
   of policies and programs.” 4


                                              All Purpose Table

                                                 FY 2007         FY 2008         FY 2009          FY 2009
                    Program                       Actual         Enacted         Estimate       +/- FY 2008

   Appropriated:
    Discretionary                               $39,808,000      $43,231,000     $46,058,000    +$ 2,827,000
    Trust Fund (Caps Proposal)                            --               --    $18,967,000     +18,967,000
    Reimbursables                               $18,386,000      $17,907,000     $18,399,000      +$492,000
     Total, Appropriated                        $58,194,000      $61,138,000     $83,424,000    +$22,286,000

   Not Separately Appropriated:
    HCFAC                                      $165,920,000     $169,736,000    $174,998,000     +$5,262,000
    Medicaid Integrity Program (DRA)            $25,000,000      $25,000,000     $25,000,000               --
    Never Events                                 $3,000,000                --              --              --
    HIPAA Collections                            $9,650,000       $9,650,000      $9,650,000               --
     Total, Not Separately Appropriated        $203,570,000     $204,386,000    $209,648,000     +$5,262,000

   Total Funding All Sources                   $261,764,000     $265,524,000    $293,072,000    +$27,548,000

   Appropriated:
    Discretionary                                        258             260             260               --
    Trust Fund (Caps Proposal)                             0               0             110            +110
    Reimbursables                                         18              11              11               --
     Total, Appropriated                                 276             271             381            +110

   Not Separately Appropriated:
    HCFAC                                               1,036          1,071           1,076              +5
    Medicaid Integrity Program (DRA)                      185            205             186             -19
    Never Events                                            1              8               4              -4
    HIPAA Collections                                      15             15              15               --
     Total, Not Separately Appropriated                 1,237          1,299           1,281             -18

   Total FTE All Sources                                1,513          1,570           1,662             +92




   4
           HHS Strategic Plan, Fiscal Years 2007-2012

                                                                                                      Page 2
Budget Exhibits                                                  Department of Health and Human Services
                                                                               Office of Inspector General



                                       Appropriation Language

   For expenses necessary for the Office of Inspector General, including the hire of passenger

   motor vehicles for investigations, in carrying out the provisions of the Inspector General Act of

   1978, as amended, $46,058,000: Provided, that of such amount, necessary sums are available

   for providing protective services to the Secretary and investigating non-payment of child support

   cases for which non-payment is a Federal offense under 18 U.S.C. Section 228.

   (H.R. 2764 Consolidated Appropriations Act, 2008)




                                                                                               Page 3
Budget Exhibits                                                               Department of Health and Human Services
                                                                                            Office of Inspector General


                                             Amounts Available for Obligation

                                                                   FY 2007         FY 2008          FY 2009
                                                                    Actual         Estimate         Estimate
   Discretionary Appropriation:
   Appropriation...............................................   $ 39,813,000     $44,000,000      $46,058,000
   Reduction Pursuant P.L. 110-161...............                            --      -$769,000                 --
    Subtotal, adjusted appropriation ................              $39,813,000     $43,231,000      $46,058,000
   Unobligated balance lapsing.......................                -$714,600                --               --
    Subtotal, discretionary obligations ............               $39,098,400     $43,231,000      $46,058,000


   Trust Fund Discretionary Appropriation:
   Discretionary Caps Proposal ......................                        --               --    $18,967,000
    Subtotal, trust fund....................................                 --               --    $18,967,000


   Total, Discretionary Appropriation..........                    $39,098,400     $43,231,000      $65,025,000


   Mandatory Appropriations:
   Health Care Fraud and Abuse Control
   Program, P.L 104-191, 109-432 ................                 $165,920,000    $169,736,000     $174,998,000
   Medicaid Integrity Program P.L. 109-171 ...                     $25,000,000     $25,000,000      $25,000,000
   Never Events P.L. 109-432.........................               $3,000,000                --               --
    Subtotal, mandatory appropriations ..........                 $193,920,000    $194,736,000     $199,998,000

   Total obligations .......................................      $233,018,400    $237,967,000     $265,023,000




                                                                                                         Page 4
Budget Exhibits                                                   Department of Health and Human Services
                                                                                Office of Inspector General


                         Summary of Changes – Discretionary Appropriation

   2008
           Total estimated budget authority (Obligations)......... ………………. $43,231,000

   2009
           Total estimated budget authority (Obligations)......... ………………. $46,058,000

             Net Change (Obligations)..................................... ………………..+$2,827,000


                                                    2008 Estimate           Change from Base

                                                 FTE         Budget       FTE          Budget
                                                            Authority                 Authority
   Increases:
   A. Built In:
   1. Annualization of January 2008 pay raise    (260)    $30,349,000      (0)      +$266,000
   2. Effect of January 2009 pay raise           (260)    $30,349,000      (0)      +$660,000
   3. WIGI/Promotions                            (260)    $30,349,000      (0)      +$303,000
   4. Effect of rate changes for various                  $12,882,000      (0)     +$2,021,000
       mandatory charges (rent, SSF, IT &
       HHS initiatives, etc.)
          Subtotal, Built-In Increases                                     (0)     +$3,250,000

   Decreases:
   A. Built In:
   1. Reduction for One Day Less Pay             (260)    $30,349,000      (0)        -$119,000

   B. Program
   1. Reduction in Other Administrative                                               -$304,000
       Expenses
         Subtotal, Decreases                                                          -$423,000


   Net Change                                                                      +$2,827,000




                                                                                                  Page 5
Budget Exhibits                                                  Department of Health and Human Services
                                                                               Office of Inspector General


                                 Budget Authority by Activity

                                  FY 2007               FY 2008                  FY 2009
                                   Actual               Estimate                 Estimate
                                FTE        Amount     FTE        Amount       FTE        Amount

   Discretionary                  258       $39,808     260       $43,231       260       $46,058

   Mandatory (HCFAC)            1,036      $165,920   1,071      $169,736      1,076     $174,998

   Trust Fund (Caps proposal)         --         --         --          --      110       $18,967

   Medicaid Integrity             185       $25,000     205       $25,000       186       $25,000

   HIPAA Collections                  15     $9,650         15     $9,650           15     $9,650

   Never Event                         1     $3,000          8          --           4         --

   Discretionary Reimbursable         18    $18,386         11    $17,907           11    $18,399

   Total                        1,513      $261,764   1,570      $265,524      1,662     $293,072




                                                                                               Page 6
Budget Exhibits                                          Department of Health and Human Services
                                                                       Office of Inspector General


                                   Authorizing Legislation


                                    2008            2008            2009            2009
                                   Amount          Enacted         Amount          Budget
                                  Authorized     Appropriation    Authorized       Request
   Office of Inspector General:
   P.L. 95-452, as amended         Indefinite      $43,231,000     Indefinite     $46,058,000
   P.L. 104-191, P.L. 109-432      Indefinite    $169,736,000      Indefinite    $174,998,000
   P.L. 109-171                   $25,000,000      $25,000,000   $25,000,000      $25,000,000




                                                                                    Page 7
Budget Exhibits                                          Department of Health and Human Services
                                                                       Office of Inspector General


                                Appropriations History Table



                                     Budget                        Senate        Net Enacted
                                    Estimate         House        Allowance      Appropriation
                                  to Congress      Allowance
   FY 2000
   Discretionary                     31,500,000     29,000,000     35,000,000      31,500,000
    Rescission                                --             --             --       -106,000
   Mandatory                        119,250,000              --             --    119,250,000
   FY 2001
   Discretionary                     33,849,000     31,394,000     33,849,000      33,849,000
    Rescission                         -151,000              --             --        -63,000
   Mandatory                        130,000,000    120,000,000    130,000,000     130,000,000
   FY 2002
   Discretionary                     35,786,000     35,786,000     35,786,000      35,786,000
    Rescission                                --             –              –        -228,000
   Mandatory                        150,000,000    130,000,000    150,000,000     145,000,000
   FY 2003
   Discretionary                     39,497,000     39,497,000     39,497,000      39,300,000
    Rescission                                --             --             –        -242,450
    Mandatory                       160,000,000    160,000,000    160,000,000     160,000,000
   FY 2004
   Discretionary                     39,497,000     39,497,000     39,497,000      39,094,000
    Rescission                                --             --             --       -403,000
   Mandatory                        160,000,000    160,000,000    160,000,000     160,000,000
   FY 2005
   Discretionary                     40,323,000     40,323,000     40,323,000      39,930,000
    Rescission                                --             --             --       -393,000
   Mandatory                        160,000,000    160,000,000    160,000,000     160,000,000
   Trust Fund (MMA)                           --             --             --     25,000,000
   FY 2006
   Discretionary                     39,813,000     39,813,000     39,813,000      39,813,000
    Rescission                                --             --             --       -398,000
   Mandatory                        160,000,000    160,000,000    160,000,000     160,000,000
   Medicaid Integrity Program        25,000,000     25,000,000     25,000,000      25,000,000
   FY 2007
   Discretionary                     43,760,000     41,415,000     43,760,000      39,808,000
   Mandatory                        160,000,000    160,000,000    160,000,000     165,920,000
   Trust Fund (Caps Proposal)        11,336,000              --             --              --
   Medicaid Integrity Program        25,000,000     25,000,000     25,000,000      25,000,000
     Never Event Funding                      --             --             --      3,000,000




                                                                                     Page 8
Budget Exhibits                                          Department of Health and Human Services
                                                                       Office of Inspector General


                          Appropriations History Table (continued)



                                     Budget                        Senate        Net Enacted
                                    Estimate         House        Allowance      Appropriation
                                  to Congress      Allowance
   FY 2008
   Discretionary                    44,687,000      44,687,000     45,687,000      44,000,000
     Rescission                              --              --             --       -769,000
   Mandatory                       169,736,000     169,736,000    169,736,000     169,736,000
   Trust Fund (Caps Proposal)       17,530,000      36,680,000     36,690,000               --
   Medicaid Integrity Program       25,000,000      25,000,000     25,000,000      25,000,000
   FY 2009
   Discretionary                    46,058,000
   Mandatory                       174,998,000
   Trust Fund (Caps Proposal)       18,967,000
   Medicaid Integrity Program       25,000,000




                                                                                     Page 9
Narrative By Activity                                                                   Department of Health and Human Services
                                                                                                      Office of Inspector General



                                                        Header Information

                                  FY 2007                 FY 2008                     FY 2009                       FY 2009 +/-
                                    CR                  Appropriation            President’s Budget                   FY 2008
    Budget Authority            $39,808,000             $43,231,000                 $46,058,000                     +$2,827,000
    FTE                             258                     260                         260                              --

    Authorizing Legislation: Inspector General Act of 1978
    FY 2009 Authorizing ....................................................................................................... Indefinite
    Allocation Method ................................................................................................... Direct Federal



    Program Description

    The mission of the Office of Inspector General (OIG), as mandated by the Inspector General Act
    of 1978 (Public Law 95-452, as amended), is “(1) to conduct and supervise audits and
    investigations relating to the programs and operations of [the Department of Health and Human
    Services (HHS)]; (2) to provide leadership and coordination and recommend policies for
    activities designed (A) to promote economy, efficiency, and effectiveness in the administration
    of, and (B) to prevent and detect fraud and abuse in, such programs and operations; and (3) to
    provide a means for keeping the [the Secretary] and the Congress fully and currently informed
    about problems and deficiencies relating to the administration of such programs and operations
    and the necessity for and progress of corrective action.”

    The operational mission statement adopted by OIG and used for organizational purposes such
    as strategic planning is “to protect HHS program integrity and beneficiary well-being by
    detecting and preventing waste, fraud and abuse; (2) identifying to Congress, the Department
    and the public opportunities to improve program economy, efficiency and effectiveness; and
    (3) holding accountable those who violate program requirements.”

    OIG accomplishes its mission by conducting audits, investigations, and inspections; by
    providing industry guidance; and, when appropriate, with the imposition of civil monetary
    penalties, assessments, and administrative sanctions. OIG is organized into five offices to carry
    out these activities, including the Office of Audit Services, Office of Investigation, Office of
    Evaluation and Inspections, Office of Counsel to the Inspector General, and Office of
    Management and Policy.

    OIG is headquartered in Washington, D.C. and has a nation-wide network of approximately 90
    regional and field offices, with more than 80 percent of OIG staff working outside the
    Washington, DC metropolitan area. At all levels, OIG staff work in close cooperation with the
    Department and its Operating and Staff Divisions, the Department of Justice and other agencies
    in the Executive Branch, the United States Congress, and the States to bring about systemic
    changes, successful prosecutions, negotiated settlements, and recovery of funds to protect the
    integrity of HHS programs and expenditures and the well-being of beneficiaries.



                                                                                                                               Page 10
Narrative By Activity                                             Department of Health and Human Services
                                                                                Office of Inspector General


    Accomplishments

    OIG uses three performance measures to demonstrate progress in accomplishing its mission,
    including: (1) expected recoveries from investigative receivables and audit disallowance,
    (2) return on investment, and (3) number of accepted quality and management improvement
    recommendations.

    OIG is currently undertaking a strategic planning and performance measurement effort to
    broaden its performance measures and orient organizational performance reporting towards
    outcomes. OIG is working collaboratively with the Office of Management and Budget (OMB)
    and the Department on this effort, which was initiated in FY 2007 with the goals of improving the
    thoroughness of OIG’s existing measures and addressing comments OMB expressed as during
    the calendar year 2002 Program Assessment Rating Tool (PART) assessment of the HCFAC
    program.


    Summary of “Expected Recoveries” and “Return on Investment” Performance Measures:
    The performance measure for expected recoveries is comprised of identified and documented
    expected recoveries that resulted in audit disallowances and investigative outcomes such as
    successful prosecutions, court ordered restitution, and out of court settlements during a given
    reporting period. Expected recoveries are generally a good measure of an OIG’s direct financial
    benefit to the government, however as you will see throughout this section, measures of the
    many significant non-financial contributions of OIG’s are important as well.

    Once expected recoveries are determined for a reporting period, an OIG-wide return on
    investment is calculated. The return on investment is calculated as the ratio of expected
    recoveries to the total cost of operating the OIG (e.g., $10:1). Expected recoveries and return
    on investment are OIG PART measures for the HCFAC program, however similar calculations
    are also used to articulate the direct financial benefit of OIG’s oversight of HHS’ non-Medicare
    and Medicaid programs and operations as well.

    For both performance measures, expected recoveries and return on investment, performance is
    reported as a three-year moving average. This methodology enables OIG to account for the
    multiple year duration that is typical of audits and investigations, the time required for the U.S.
    Attorney’s to pursue and reach resolution on a case, and for the time built in to the
    recommendation process for program managers to respond to OIG recommendations. As a
    result of the long duration of audits and investigations and the staggered outcomes spanning
    multiple years, there are often significant year to year variances in OIG’s reported performance
    measures. The three-year moving average is an important control to reflect the “ground truth”
    within which OIG operates.

    The challenges presented by the multiple year duration of OIG oversight activities are further
    complicated by the unpredictable outcomes of audit and investigative work in general. While
    OIG applies a rubric of several factors to target its resources to high risk areas, the outcomes of
    oversight activities are always subject to unpredictability. Although audit disallowances or
    investigative outcomes may be an anticipated result of OIG oversight activities, they are not
    guaranteed and may not always be a good indicator of whether an OIG is fulfilling its
    responsibility to act as an unbiased agent of program integrity.


                                                                                               Page 11
Narrative By Activity                                                     Department of Health and Human Services
                                                                                        Office of Inspector General


    Performance Reporting for “Expected Recoveries” and “Return on Investment”
    Performance Measures
    OIG’s performance measures for expected recoveries and return on investment are reported at
    two levels, (1) organization-wide or (2) based on category of funding.

    During the three-year period from FY 2005 to FY 2007 the total OIG expected recoveries
    averaged $3.14 billion per year, exceeding all previous reporting periods and the prior reporting
    period by 17 percent. The returns averaged more than $1.82 billion in investigative receivables
    and $1.32 billion in audit disallowances per year. The resultant organization-wide return on
    investment for the FY 2005 to FY 2007 reporting period was 14.5 dollars for each dollar spent in
    the OIG operating budget.

    Because approximately 80 to 83 percent of OIG’s annual operating budget is appropriated
    through mandatory funding streams with specific requirements to oversee the Medicare and
    Medicaid programs (e.g., HIPAA/HCFAC and DRA/MIP) it is also important to separate
    reporting based on funding stream. In fact, both of these measures, expected recoveries and
    return on investment, are measures used for the PART for the HCFAC program. For the three-
    year period from FY 2005 to FY 2007, OIG investigative receivables and audit disallowances
    resulting from Medicare and Medicaid oversight averaged $1.8 billion and $1 billion per year
    respectively. The result was a Medicare and Medicaid oversight specific return on investment
    for OIG of $16.4:1. OIG performance reporting for both measures exceeds the established
    PART targets.

    The 17 to 20 percent of OIG’s annual operating budget that is appropriated through a single
    discretionary funding stream is intended to fund oversight of the more than 300 non-Medicare
    and Medicaid programs and operations at HHS, which had estimated annual outlays of $112
    billion. This includes, but is not limited to, oversight of the following areas that were identified by
    OIG as HHS’ Top Management Challenges in FY 2007:

        •   Public Health Emergency Preparedness and Response;
        •   Food, Drug, and Medical Devices Safety;
        •   Grants Management;
        •   Integrity of Information Technology Systems and Infrastructure; and
        •   Ethics Program Oversight and Enforcement. 5

    In addition to funding oversight of these and other programs with discretionary resources, OIG
    also funds activities related to several of the office’s mandatory responsibilities in the
    department, including roles in the child support enforcement process, financial statement and
    FISMA compliance audits, and providing a security detail to protect the safety of the HHS
    Secretary’s. As a result of OIG’s oversight of HHS’ non-Medicare and Medicaid programs and
    the fulfillment of OIG’s departmental responsibilities, during the FY 2005 to FY 2007 period OIG
    audit disallowances and investigative receivables averaged $298 million and $10 million per
    year. The result was a return on investment of $7.8 for each discretionary dollar spent in the
    OIG budget during the same period.



    5
            A complete listing of the Department’s Top Management Challenges is included in the HHS Financial
            Report (formerly the Performance and Accountability Report).

                                                                                                          Page 12
Narrative By Activity                                                      Department of Health and Human Services
                                                                                         Office of Inspector General

    Detailed summaries of the audits and types of investigations that were completed during
    FY 2007 are reported in the OIG Fall and Spring Semiannual Reports to Congress, which can
    accessed through the OIG web site. 6 Samples of the outcome oriented descriptions included in
    the Semiannual Reports include:

        Examples of Oversight Related to the Medicare and Medicaid Programs Contributing to
        Expected Recoveries and Return on Investment:

        Purdue Companies and Three Executives to Pay Nearly $635 Million for Fraudulently
        Marketing OxyContin. As part of a global criminal, civil, and administrative settlement
        agreement, the Purdue Frederick Company, Inc., and Purdue Pharma L.P. (collectively, the
        Purdue Companies), and three top executives agreed to pay almost $635 million to resolve
        a variety of Federal, State, and private liabilities. Specifically, the agreement resolved
        allegations that the Purdue Companies waged a fraudulent and deceptive marketing
        campaign aimed at convincing doctors nationwide that OxyContin, because of its time-
        release formula, was less prone to abuse and that it was less likely to cause addiction or to
        produce other narcotic side effects than competing immediate release opioids. The Purdue
        Frederick Company, Inc. is subject to a 25-year exclusion from Medicare/Medicaid; Purdue
        Pharma L.P. agreed to enter a 5-year corporate integrity agreement (CIA) with OIG.

        South Florida Medicare Fraud. OIG used a multifaceted approach to fight Medicare fraud in
        South Florida in cooperation with partners at the U.S. Attorney’s Office for the Southern
        District of Florida. Together the partnership developed innovative methods to identify and
        prosecute fraud resulting in $54.3 million in investigative receivables and a number of criminal
        indictments related to durable medical equipment fraud. Additionally, OIG analyzed the claims
        patterns of HIV/AIDS infusion therapy providers and beneficiaries in three South Florida
        counties and determined that in the last half of 2006, these counties accounted for half of the
        total amount, and 79 percent of the amount for drugs, billed nationally for Medicare
        beneficiaries with HIV/AIDS. OIG also found that the approaches CMS and its contractors
        have used to control these aberrant billing practices have not proven effective. OIG
        recommended that CMS treat South Florida as a high-risk area, mandate site visits for certain
        providers, adjust contractor standards for processing new applications, modify the Statement
        of Work for the jurisdiction that includes South Florida, review all reassignments in high-risk
        areas, and strengthen revocations.

        Example of Oversight of HHS’ Non-Medicare and Medicaid Programs Contributing to
        Expected Recoveries and Return on Investment Contributing to Expected Recoveries and
        Return on Investment:

        Aid to Families With Dependent Children Overpayment Recoveries. OIG reviewed 43
        States and found that 24 States complied with Federal requirements and reimbursed the
        Administration for Children and Families (ACF) $59 million for the Federal share of Aid to
        Families With Dependent Children (AFDC) overpayment recoveries from July 2002 through
        June 2006. Although the remaining 19 States and the District of Columbia continued to
        recover overpayments from former AFDC recipients after the program ended in 1996, these
        governments did not reimburse ACF $28.7 million for the Federal share of their recoveries.
        OIG determined that 19 States and the District of Columbia did not reimburse ACF as


    6
           Office of Inspector General web page, http://oig.hhs.gov/publications/semiannual.html#1

                                                                                                     Page 13
Narrative By Activity                                            Department of Health and Human Services
                                                                               Office of Inspector General

       required because they did not follow ACF’s program instruction. In addition, ACF did not
       have monitoring procedures to ensure that the Federal Government received its share of
       AFDC overpayment recoveries from all States. OIG recommended that ACF (1) collect from
       the 19 States and the District of Columbia the Federal share of AFDC overpayment
       recoveries totaling $28.7 million and (2) establish monitoring procedures to ensure that the
       Federal Government receives its share of future State-recovered AFDC overpayments in a
       timely manner. ACF agreed with the recommendations.


    Summary of “Number of Accepted Quality and Management Improvement
    Recommendations”
    In addition to the direct financial recoveries described above, OIG reports the number of
    accepted quality and management improvement recommendations that resulted from audit and
    evaluation reports issued during a reporting period. This performance measure captures an
    important aspect of OIG’s efforts to identify and correct systematic weaknesses in program
    administration and policy implementation and reflects a significant aspect of OIG’s contribution
    to improving the operations of HHS.

    Once OIG reports are completed and transmitted to a program under consideration, HHS
    program managers have a six month time period in which they must submit a formal response
    to document their concurrence or disagreement with OIG findings and recommendations.
    Whether or not program managers concur with OIG recommendations is generally a good
    indicator of the merit and validity of OIG recommendations. However, acceptance of OIG’s
    recommendations is separate from its implementation, which is subject to many factors outside
    the OIG’s control, such as the availability of resources and management discretion. As a result,
    some OIG recommendations are accepted and not implemented. OIG therefore considers the
    performance measure, number of accepted quality and management improvement
    recommendations, an intermediate outcome measure.


    Performance Reporting for “Number of Accepted Quality and Management Improvement
    Recommendations”
    HHS’ Operating and Staff Divisions accepted 88 of OIG’s quality and management improvement
    recommendations during FY 2007. This result exceeded the annual target of 75 by 17 percent.

       Example of Accepted OIG Quality and Management Improvement Recommendations:

       Enrollment Levels in Head Start. OIG assessed enrollment levels in the Head Start
       program, which is overseen by the Administration for Children and Families (ACF). Head
       Start regulations require grantees to maintain enrollment at 100 percent of the funded
       enrollment level. OIG found that almost all Head Start grantees had high enrollment levels.
       Overall, 5 percent of Head Start slots were funded but not filled. Grantees cited a variety of
       challenges to maintaining full enrollment, including transportation issues. OIG also found
       that ACF’s monitoring of enrollment levels may rely on inaccurate data. Following the
       release of this report, ACF developed and put online a “transportation pathfinder,” which
       provides transportation resources to grantees. Additionally, ACF made changes to their
       Program Information Report system to improve data accuracy. These changes are
       expected to improve ACF’s ability to monitor Head Start enrollment as well as grantees’
       ability to maintain full enrollment.

                                                                                              Page 14
Narrative By Activity                                                Department of Health and Human Services
                                                                                   Office of Inspector General


        FDA’s Oversight of Clinical Trials Through Its Inspection Processes. Through an evaluation
        OIG identified data limitations and other factors that affect the Food and Drug
        Administration’s (FDA) ability to effectively manage the Bioresearch Monitoring (BiMo)
        program. For example, FDA is unable to identify all clinical trials and institutional review
        boards (IRB), and it lacks a single database for tracking its own inspections. Furthermore,
        the three FDA centers and the Office of Regulatory Affairs inconsistently classify some
        inspections. In addition, FDA’s guidance and regulations do not reflect current clinical trials
        practices. Finally, OIG developed estimates for the coverage of FDA clinical trials
        inspections for the fiscal year 2000–2005 period of approximately 1 percent. As a result, we
        recommended that FDA take the following steps to improve its information systems and
        processes: (1) develop a clinical trial database that includes all clinical trials, (2) create an
        IRB registry, (3) create a cross-center database that enables complete tracking of BiMo
        inspections, (4) establish a mechanism to provide feedback to BiMo investigators on their
        inspection reports and findings, and (5) seek legal authority to provide oversight that reflects
        current clinical trial practices.

    Additional summaries of OIG audit and evaluation reports that resulted in accepted quality and
    management improvement recommendations during FY 2007 can be found in the OIG’s 2007
    Semiannual Reports to Congress.

    Summary of CY 2002 OMB Program Assessment Rating Tool (PART) of HCFAC

    The OIG operated Health Care Fraud and Abuse Control (HCFAC) Program underwent a PART
    assessment in calendar year 2002 and received a PART rating of “Results Not Demonstrated.”
    The review cited the program’s strong financial practices and demonstrated anecdotal success
    as strengths and identified the lack of a measurable baseline of health care fraud from which to
    measure program success as a weakness. To improve upon the identified weakness and to
    continue the OIG leadership’s commitment to moving performance reporting towards an
    outcome orientation, OIG is “developing performance measures that are closely tied to the
    program's mission; measurable against an established, objective baseline; and can be used to
    make resource allocation decisions.” 7




    7
           OIG PART Improvement Plan. To view OIG’s PART Improvement Plan visit http://www.expectmore.gov.

                                                                                                    Page 15
Narrative By Activity                                             Department of Health and Human Services
                                                                                Office of Inspector General


                                             Funding History

                                   FY 2003               $39,300,000
                                   FY 2004               $39,094,000
                                   FY 2005               $39,930.000
                                   FY 2006               $39,813,000
                                   FY 2007               $39,808,000
                                   FY 2008               $44,000,000



    Budget Request

    The FY 2009 budget request is $46,058,000, which is an increase of $2,827,000 and no FTE
    above the FY 2008 President’s Budget request. The request is comprised of mandatory pay
    and other inflationary increases, including the Service and Supply Fund, and other
    Departmental initiatives such as the President’s Management Agenda e-Gov initiatives and
    Departmental enterprise information technology initiatives identified through the HHS strategic
    planning process. The discretionary funding also supports OIG’s obligation’s to perform
    financial statement audits for the Department, to conduct FISMA compliance audits, and to
    provide the security detail for the Secretary, each of which involves costs that are increasing at
    a greater rate than OIG’s discretionary appropriation. This request will enable OIG to maintain
    the FY 2008 FTE level of 260.

    The outlays of HHS’ approximately 300 non-Medicare and Medicaid programs and offices have
    nearly doubled from FY 1998 to 2007, reaching estimated outlays in FY 2007 of $112 billion. As
    these programs continue to grow in size and scope, OIG struggles to maintain its capacity to
    perform Department-wide oversight of sufficient scope and depth to protect program integrity
    and detect fraud, waste, and abuse in the Department’s vast array of programs. The OIG’s
    ability to fulfill this responsibility has eroded measurably over the last 10 years. During the
    period covering FY 1998 to 2007 the discretionary budget authority from which OIG funds non-
    Medicare and Medicaid related oversight in addition to its other obligations to the Department
    declined by 21.5 percent relative to the growth in Departmental outlays. As a consequence, an
    increasing share of HHS expenditures is susceptible to mismanagement, fraud, waste, and
    abuse.




                                                                                               Page 16
Narrative By Activity                                                             Department of Health and Human Services
                                                                                                Office of Inspector General


    Outputs and Outcomes Tables

    The following outcome and output tables reflect key OIG progress in accomplishing its mission.


                                                     Key Outcomes Table*

        #     Key Outcomes     FY 2004      FY 2005         FY 2006                   FY 2007           FY 2008   FY 2009   Out-Year
                                Actual       Actual    Target     Actual          Target    Actual       Target    Target    Target
    Long Term Objective 1: Make a positive impact on HHS programs

    1.1     Return on                 $10.5 :1   $11.6 :1   $11.9 :1   $12.9 :1   $11.4 :1   $16.4 :1   $13.5:1   Sept-08     n/a
                       8
            Investment
    1.2     Expected recoveries       $2,024     $2,346     $2,580     $2,678     $2,460     $2,835     $2,623    Sept-08     n/a
            from investigative
            receivables and
                                  7
            audit disallowances
            (dollars in millions)
                                                                              9
    1.3     Number of accepted          68         73         70        116         75         88         75      Sept-08     n/a
            quality and
            management
            improvement
            recommendations


    *note: Performance measures 1.1 and 1.2 reflect the three year moving average ending in the
    year indicated by the column heading. For additional information please reference page 11.




    8
               The Deficit Reduction Act of 2005, which became law during the second quarter of FY 2006, appropriated
               $25 million per year to OIG from FY 2006 to 2010, to be available until expended. None of the FY 2006
               appropriation was spent; therefore, the denominator used to calculate return on investment covering FY
               2006 excludes that amount.
    9
               This result is higher than the target of 70 by nearly 60 percent. Most of the increase was attributable to
               three evaluation/inspection reports that were complex and contained an unusually large number of
               recommendations.

                                                                                                                    Page 17
Narrative By Activity                                                                   Department of Health and Human Services
                                                                                                      Office of Inspector General


                                                       Key Outputs Table

  #*         Key Outputs           FY 2004   FY 2005         FY 2006                  FY 2007           FY 2008    FY 2009     Out-Year
                                    Actual    Actual   Target / Actual         Target /     Actual      Target /   Target /    Target /
                                                       Estimate                Estimate                 Estimate   Estimate    Estimate
 1.1    Number complaints           3,060     3,774       --       3,941           --        4,897          --        n/a        n/a
 1.2    received
 1.1    Number cases opened         1,659     1,660      --          1,690        --         2,003         --        n/a         n/a
 1.2
 1.1    Number cases closed         1,743     1,790      --          1,562        --         1,723         --        n/a         n/a
 1.2
 1.3    Number of Final              45        92         --             59       --             54        --      Sept-08       n/a
        Evaluation Reports
        Issued
 1.3    Number of Draft             56%       74%         --         46%          --             55%       --      Sept-08       n/a
        Evaluation Reports
                             10
        Issued within 1 year
                                                                                                   11
 1.2    Number of Final Audit       388       337         --             364      --         457           --      Sept-08       n/a
 1.3    Reports Issued
 1.2    Timeliness--                78%       66%         --         73%          --             73%       --      Sept-08       n/a
 1.3    Percentage of Draft
        Audit Reports Issued
                               8
        Within 1 Year of Start
             Appropriated          $39.094   $39.930           $39.813                 $39.808          $44.000    $46.058
                Amount
          (Dollars in Millions)


       *note: The references in this column tie back to the key OIG outcome measures on page 17.
       Multiple outcome measures are cited in this column because they have numerous contributing
       outputs.




       10
                The timeframe for this measure is the amount time between an approved study design and a signed draft (or
                a signed final if no draft was issued).
       11
                During FY 2007, OIG’s Office of Audit Services issued 42 limited objective audit reports related to FEMA
                funding provided to HHS for Gulf-Coast hurricane-related activities. These reports contributed to a
                significant increase in Audit reports produced in FY 2007, resulting in an unanticipated spike in output for
                that year.

                                                                                                                           Page 18
Supplementary Tables                                                                        Department of Health and Human Services
                                                                                                          Office of Inspector General


                                                   Budget Authority by Object Class

                                                                                      2008            2009           Increase or
                                                                                     Estimate        Estimate         Decrease

   Personnel Compensation:
       Full-time Permanent (11.1) ....................................             $22,620,000    $23,223,000        +$603,000
       Other than Full-time Permanent (11.3) ..................                       368,000         378,000          +10,000
       Other Personnel Compensation (11.5) ..................                         319,000         325,000           +6,000
       Military Personnel (11.7) ........................................              60,000          62,000           +2,000
           Subtotal Personnel Compensation ................                        $23,367,000    $23,988,000        +$621,000
   Civilian Personnel Benefits (12.1)...............................                 6,961,000       7,145,000        +184,000
   Military Benefits (12.2) ................................................           21,000          22,000           +1,000
   Benefits to Former Personnel (13.0)...........................                           0                   0             0
   Total Pay Costs ........................................................        $30,349,000    $31,155,000        +$806,000


   Travel (21.0)................................................................     1,430,000       1,460,000         +30,000
   Transportation of Things (22.0)...................................                 372,000         379,000           +7,000
   Rental Payments to GSA (23.1)..................................                   3,027,000       3,087,000         +60,000
   Rental Payments to Others (23.2) ..............................                     87,000          89,000           +2,000
   Communications, Utilities, & Misc. Charges (23.3).....                             510,000         520,000          +10,000
   Printing and Reproduction (24.0) ................................                   11,000          11,000                +0


   Other Contractual Services
       Advisory and Assistance Services (25.1)...............                          94,000          96,000           +2,000
       Other Services (25.2) .............................................            250,000         256,000           +6,000
       Purchases of Goods and Services from                                          6,095,000       7,979,000       +1,884,000
       Other Government Accounts (25.3) .......................
       Operations and Maintenance (25.7).......................                       237,000         242,000           +5,000
           Subtotal Contractual Services .......................                    $6,676,000      $8,573,000      +$1,897,000
   Supplies and Materials................................................             325,000         331,000           +6,000


   Equipment ...................................................................      444,000         453,000           +9,000
   Total Non-pay Costs .................................................           $12,882,000     $14,903,000      +$2,021,000
   Total BA by Object Class .........................................              $43,231,000    $46,058,000       +$2,827,000




                                                                                                                         Page 19
Supplementary Tables                                                                       Department of Health and Human Services
                                                                                                         Office of Inspector General


                                                            Salaries and Expenses

                                                                                      2008           2009          Increase or
                                                                                     Estimate       Estimate        Decrease

   Personnel Compensation:
        Full-time Permanent (11.1) ...................................             $22,620,000    $23,223,000       +$603,000
        Other than Full-time Permanent (11.3).................                        368,000         378,000         +10,000
        Other Personnel Compensation (11.5).................                          319,000         325,000          +6,000
        Military Personnel (11.7).......................................               60,000          62,000          +2,000
              Subtotal Personnel Compensation.............                         $23,367,000    $23,988,000       +$621,000
   Civilian Personnel Benefits (12.1)...............................                 6,961,000      7,145,000        +184,000
   Military Benefits (12.2) ................................................           21,000          22,000          +1,000
   Benefits to Former Personnel (13.0)...........................                           0               0                  0
   Total Pay Costs .........................................................       $30,349,000    $31,155,000       +$806,000
   Travel (21.0)................................................................     1,430,000      1,460,000         +30,000


   Transportation of Things (22.0)...................................                 372,000         379,000          +7,000
   Rental Payments to Others (23.2) ..............................                     87,000          89,000          +2,000
   Communications, Utilities, & Misc. Charges (23.3).....                             510,000         520,000         +10,000
   Printing and Reproduction (24.0) ................................                   11,000          11,000               +0
   Other Contractual Services:


        Advisory and Assistance Services (25.1) .............                          94,000          96,000          +2,000
        Other Services (25.2)............................................             250,000         256,000          +6,000
        Purchases of Goods and Services from Other
          Government Accounts (25.3)..............................                   6,095,000      7,979,000      +1,884,000
        Operations and Maintenance (25.7) .....................                       237,000         242,000          +5,000
      Subtotal Contractual Services .............................                   $6,676,000     $8,573,000     +$1,897,000
   Supplies and Materials (26.0) .....................................                325,000         331,000          +6,000


   Total Non-pay Costs .................................................            $9,411,000    $11,363,000     +$1,952,000
   Total Salary and Expense ........................................               $39,760,000    $42,518,000     +$2,758,000
   Direct FTE ..................................................................          260            260                +0




                                                                                                                     Page 20
Supplementary Tables                                       Department of Health and Human Services
                                                                         Office of Inspector General


                        Detail of Full-Time Equivalent Employees

                                            2007            2008           2009
                                            Actual         Estimate       Estimate
         Discretionary                           258              260            260
         Mandatory (HCFAC)                     1,036            1,071          1,076
         Trust Fund (Caps Proposal)                 --              --           110
         Medicaid Integrity                      185              205            186
         HIPAA Collections                         15              15             15
         Discretionary Reimbursable                18              11             11
         Never Events                               1               8              4
           Total, OIG                          1,513            1,570          1,662




                                      Average GS Grade

                            Fiscal Year           Average Grade
                               2004                      11.9
                               2005                      12.1
                               2006                      12.0
                               2007                      12.0
                               2008                      12.0




                                                                                       Page 21
Supplementary Tables                                 Department of Health and Human Services
                                                                   Office of Inspector General


                               Detail of Positions

                                    2007               2008               2009
                                    Actual            Estimate           Estimate
   Executive Level IV                          1                  1                  1
   Exec. Level Salaries                $149,000           $149,000          $149,000
   SES Positions                              15                 15                 15
   ES Salaries                       $2,296,000         $2,348,000        $2,403,000
   GS-15                                      69                  73                73
   GS-14                                     191                 185             185
   GS-13                                     538                 555             575
   GS-12                                     377                 392             412
   GS-11                                     129                 135             145
   GS-10                                       1                  1                  1
   GS-9                                      121                 150             170
   GS-8                                       14                  12                12
   GS-7                                       86                  86                88
   GS-6                                        7                   7                 7
   GS-5                                       10                  12                12
   GS-4                                        0                   2                 2
   GS-3                                        1                   0                 0
   GS-2                                        0                   0                 0
   GS-1                                        0                   0                 0
     Total - GS Positions                 1,544               1,610            1,682
     Total – GS Salary            $134,368,000        $137,968,000      $148,271,000
   Average ES Salary                   $153,036           $156,555          $160,156
   Average GS Grade                          12.0              12.0              12.0
   Average GS Salary                    $87,143            $89,468           $91,794
   Average Comm. Corp Level                    3                   3                 3
   Average Comm. Corp Salary            $58,000            $60,000           $62,000

                                                                               Page 22
Special Requirements                                            Department of Health and Human Services
                                                                              Office of Inspector General


    Financial Management Systems

    UFMS Operations and Maintenance

    UFMS has now been fully deployed. The Program Support Center, through the Service and Supply
    Fund, manages the ongoing Operations and Maintenance (O&M) activities for UFMS. The scope of
    O&M services includes post deployment support and ongoing business and technical operations
    services, as well as an upgrade of Oracle software from version 11.5.9 to version 12.0. The Office
    of Inspector General will use $1,629,756 for these O&M costs in FY 2009.

    HHS Consolidated Acquisition System

    The HHS Consolidated Acquisition System (HCAS) initiative is a Department-wide contract
    management system that will integrate with the Unified Financial Management System (UFMS).
    The applications within the HCAS are Compusearch PRISM and a portion of the Oracle
    Compusearch Interface (OCI). PRISM is a federalized contract management system that helps
    streamline the procurement process. The implementation of PRISM includes the functionality of
    contract writing, simplified acquisitions, electronic approvals and routing, pre-award tracking,
    contract monitoring, post award tracking, contract closeout and reporting. Major functions once
    integrated with the UFMS include transfer of iProcurement requisition for commitment
    accounting and funds verification to PRISM and transmission of the award obligation from
    PRISM to Oracle Financials.

    Benefits:
    The following benefits will be realized by the Department and the individual
    OPDIVs/STAFFDIVs once the HCAS system is fully implemented and integrated with UFMS:
               • Commitment Accounting
               • Integration to other HHS Administrative Systems
               • Decreased Operational Costs
               • Increased Efficiency and Productivity
               • Improved Decision Making – Unified systems
                   – Data Integrity
                   – Reporting
                   – Performance Measurement
                   – Financial Accountability
               • Standardization
                   – Business Processes
                   – Information Technology
               • Consistent Customer Service Levels
               • Refocus personnel efforts on value-added tasks
               • Knowledge Sharing
               • System Enabled Work
                   – HHS Acquisition Personnel – contracting
                   – Customers in requirement preparation – requisitioning
               • Meets Organizational Drivers and Goals (e.g., President’s Management Agenda,
                     E-Gov initiatives including Lines of Business, and One-HHS)



                                                                                            Page 23
Special Requirements                                           Department of Health and Human Services
                                                                             Office of Inspector General

    The HCAS team is working closely with the UFMS PMO and HHS PMO to ensure a smooth roll
    out of both PRISM and iProcurement. An integrated team, including personnel from UFMS,
    Acquisition and Assets has been formed to ensure maximum utilization of in-house expertise.
    OIG requests $88,157 to support these efforts in FY 2009.

    Enterprise Information Technology Fund

    The OIG will contribute $280,000 of its FY 2009 budget to support Department enterprise
    information technology initiatives as well as the President’s Management Agenda (PMA)
    Expanding E-Government initiatives. Operating Division contributions are combined to create
    an Enterprise Information Technology (EIT) Fund that finances both the specific HHS
    information technology initiatives identified through the HHS Information Technology Capital
    Planning and Investment Control process and the PMA initiatives. These HHS enterprise
    initiatives meet cross-functional criteria and are approved by the HHS IT Investment Review
    Board based on funding availability and business case benefits. Development is collaborative in
    nature and achieves HHS enterprise-wide goals that produce common technology, promote
    common standards, and enable data and system interoperability. The HHS Department
    initiatives also position the Department to have a consolidated approach, ready to join in PMA
    initiatives.

    Of the amount specified above, $6,708 is allocated to support the President’s Management
    Agenda Expanding E-Government initiatives for FY 2009. This amount supports the PMA
    E-government initiatives as follows:

                   PMA e-Gov Initiative                        FY 2009 Allocation
                   Business Gateway                                         $1,757
                   E-Authentication                                             $0
                   E-Rulemaking                                                 $0
                   E-Travel                                                     $0
                   Grants.Gov                                                   $0
                   Integrated Acquisition                                       $0
                   Geospatial LOB                                               $0
                   Federal Health Architecture LoB                              $0
                   Human Resources LoB                                      $3,022
                   Grants Management LoB                                        $0
                   Financial Management LoB                                 $1,159
                   Budget Formulation & Execution LoB                         $770
                   IT Infrastructure LoB                                        $0
                   Integrated Acquisition – Loans and Grants                    $0
                   Disaster Assistance Improvement Plan                         $0
                   TOTAL                                                    $6,708

    Prospective benefits from these initiatives are:

    Business Gateway: Provides cross-agency access to government information including: forms;
    compliance assistance resources; and, tools, in a single access point. The site offers
    businesses various capabilities including: “issues based” search and organized agency links to
    answer business questions; links to help resources regarding which regulations businesses
    need to comply with and how to comply; online single access to government forms; and,

                                                                                           Page 24
Special Requirements                                             Department of Health and Human Services
                                                                               Office of Inspector General

    streamlined submission processes that reduce the regulatory paperwork burdens. HHS’
    participation in this initiative provides HHS with an effective communication means to provide its
    regulations, policies, and forms applicable to the business community in a business-facing,
    single access point.

    E-Rulemaking: Provides citizens and organizations a single point of access to Federal
    rulemaking information. HHS posts all rulemaking notices on Regulations.gov. HHS and E-
    Rulemaking are in the requirements and planning process for migrating HHS docket-
    management process to the E-Rulemaking system.

    E-Travel: The E-Travel Program provides a standard set of travel management services
    government-wide. These services leverage administrative, financial and information technology
    best practices. By the end of FY 2006, all but one HHS OPDIV has consolidated services to
    GovTrip and legacy systems retired. By May 2008, all HHS travel will be conducted through this
    single system and the last remaining legacy functions will be retired.

    Grants.gov: Allows HHS to publish grant funding opportunities and application packages online
    while allowing the grant community (state, local and tribal governments, education and research
    organizations, non-profit organization, public housing agencies and individuals) to search for
    opportunities, download application forms, complete applications locally, and electronically
    submit applications using common forms, processes and systems. In FY 2007, HHS posted
    over 1,000 packages and received 108,436 application submissions – more than doubling
    52,088 received in FY 2007 with NIH substantially increasing its applications submissions from
    47,254 to 89,439 submissions.

    Integrated Acquisition Environment: Eliminated the need for agencies to build and maintain
    their own agency-specific databases, and enables all agencies to record vendor and contract
    information and to post procurement opportunities. Allows HHS vendor performance data to be
    shared across the Federal government.

    Integrated Acquisition Environment for Loans and Grants: Managed by GSA, all agencies
    participating in the posting and/or awarding of Loans and Grants are required by the Federal
    Funding Accountability and Transparency Act (FFATA) to disclose award information on a
    publicly accessible website. Cross-government cooperation with the Office of Management and
    Budget’s Integrated Acquisition Environment initiative in determining unique identifiers for Loans
    & Grants transactions furthers the agency in complying with the Transparency Act, which
    enhances transparency of federal program performance information, funding, and Loans &
    Grants solicitation.

    Disaster Assistance Improvement Plan (DAIP): The DAIP, managed by Department of
    Homeland Security, assists agencies with active disaster assistance programs such as HHS to
    reduce the burden on other federal agencies which routinely provide logistical help and other
    critical management or organizational support during disasters. The DAIP program office, during
    its first year of operation, will quantify and report on the benefits and cost savings or cost
    reductions for each member agency.

    Lines of Business-Human Resources Management: Provides standardized and
    interoperable HR solutions utilizing common core functionality to support the strategic
    management of Human Capital. HHS has been selected as a Center of Excellence and will be
    leveraging its HR investments to provide services to other Federal agencies.

                                                                                              Page 25
Special Requirements                                             Department of Health and Human Services
                                                                               Office of Inspector General


    Lines of Business-Geospatial One-Stop: Promotes coordination and alignment of geospatial
    data collection and maintenance among all levels of government: provides one-stop web access
    to geospatial information through development of a portal; encourages collaborative planning for
    future investments in geospatial data; expands partnerships that help leverage investments and
    reduce duplication; and, facilitates partnerships and collaborative approaches in the sharing and
    stewardship of data. Up-to-date accessible information helps leverage resources and support
    programs: economic development, environmental quality and homeland security. HHS registers
    its geospatial data, making it available from the single access point.

    Lines of Business-Federal Health Architecture: Creates a consistent Federal framework that
    improves coordination and collaboration on national Health Information Technology (HIT)
    Solutions; improves efficiency, standardization, reliability and availability to improve the
    exchange of comprehensive health information solutions, including health care delivery; and, to
    provide appropriate patient access to improved health data. HHS works closely with federal
    partners, state, local and tribal governments, including clients, consultants, collaborators and
    stakeholders who benefit directly from common vocabularies and technology standards through
    increased information sharing, increased efficiency, decreased technical support burdens and
    decreased costs.

    Lines of Business –Financial Management: Supports efficient and improved business
    performance while ensuring integrity in accountability, financial controls and mission
    effectiveness by enhancing process improvements; achieving cost savings; standardizing
    business processes and data models; promoting seamless data exchanges between Federal
    agencies; and, strengthening internal controls.

    Lines of Business-Grants Management: Supports end-to-end grants management activities
    promoting improved customer service; decision making; financial management processes;
    efficiency of reporting procedure; and, post-award closeout actions. An HHS agency,
    Administration for Children and Families (ACF), is a GMLOB consortia lead, which has allowed
    ACF to take on customers external to HHS. These additional agency users have allowed HHS
    to reduce overhead costs for internal HHS users. Additionally,
    NIH is an internally HHS-designated Center of Excellence and has applied to be a GMLOB
    consortia lead. This effort has allowed HHS agencies using the NIH system to reduce grants
    management costs. Both efforts have allowed HHS to achieve economies of scale and
    efficiencies, as well as streamlining and standardization of grants processes, thus reducing
    overall HHS costs for grants management systems and processes.

    Lines of Business-Budget Formulation and Execution: Allows sharing across the Federal
    government of common budget formulation and execution practices and processes resulting in
    improved practices within HHS.

    Lines of Business–IT Infrastructure: A recent effort, this initiative provides the potential to
    leverage spending on commodity IT infrastructure to gain savings; to promote and use common,
    interoperable architectures that enable data sharing and data standardization; secure data
    interchanges; and, to grow a Federal workforce with interchangeable skills and tool sets.




                                                                                             Page 26
Special Requirements                                           Department of Health and Human Services
                                                                             Office of Inspector General


    Health Care Fraud and Abuse Control Program

    OMB Request: The Health Insurance Portability and Accountability Act of 1996 – The Office of
    Inspector General should include a short statement of information about the Fraud and Abuse
    Control Program, describing in general terms, the guidelines established for the program and
    overall program effort.

    Efforts to combat fraud were consolidated and strengthened under Public Law 104-191, the
    Health Insurance Portability and Accountability Act of 1996 (HIPAA). The Act established a
    comprehensive program to combat fraud committed against all health plans, both public and
    private. The legislation required the establishment of a national Health Care Fraud and Abuse
    Control Program (HCFAC), under the joint direction of the Attorney General and the Secretary
    of the Department of Health and Human Services (HHS) acting through the Department's
    Inspector General. The HCFAC program is designed to coordinate Federal, State and local law
    enforcement activities with respect to health care fraud and abuse. The Act requires HHS and
    DOJ detail in an Annual Report the amounts deposited and appropriated to the Medicare Trust
    Fund, and the source of such deposits. Reports are located at
    http://www.oig.hhs.gov/publications.html.

    The Tax Relief and Healthcare Act of 2006 (P.L. 109-492) provides annual adjustments over the
    previous year to the HCFAC appropriation during the FYs 2007 - 2010 based on the percentage
    increase in the Consumer Price Index for All Urban Consumers (CPI-U) and makes HCFAC
    funding available until expended. While estimates are used for outyear projections, the current
    year increases are derived from actual CPI-U data from the Department of Labor, Bureau of
    Labor Statistics. To calculate the increase applied in FY 2008, the monthly CPI-Us (not
    seasonally-adjusted) for all of the months of FY 2007 is and divided by 12, and compared with
    the sum of the same months for FY 2006, also divided by 12 . The average CPI-U for FY 2006
    is subtracted from the average CPI-U for FY 2007. The difference is divided by the average
    CPI-U for FY 2006. This result (0.031) is then multiplied by 100, (result 3.1%, rounded to the
    nearest one-tenth of one percent). The increase of 3.1% is applied to the FY 2007 base of
    $165,920,000 to calculate the FY 2008 appropriation of $169,736,000 (i.e., the $165,920,000
    figure is multiplied by 1.031).

    The portion of HCFAC funds appropriated to HHS OIG in FY 2008 was $169,736,000. The
    amount included in the FY 2009 budget is for $174,998,000.




                                                                                           Page 27
